OIG Audit Report GR-30-98-002
Use of Equitable Sharing Revenues Arlington County Police Department Arlington, Virginia
Audit Report GR-30-98-002 
December 1997 
Office of the Inspector General

AUDIT RESULTS
The Department of Justice (DOJ), Office of the Inspector General (OIG), Audit Division has completed an audit of the Use of Equitable Sharing Revenues received by Arlington County Police Department (Police Department), Arlington, Virginia.  The audited equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in connection with joint Federal and local criminal investigations.  The funds are to be used to enhance law enforcement resources.

	We performed the audit in accordance with generally accepted government auditing standards and, accordingly, included such tests of the records and procedures as we considered necessary.  We audited the equitable sharing revenues, interest earned, and expenditures for the period of July 1, 1995 through June 30, 1996.  

	Generally, equitable sharing revenues were accounted for accurately in financial records, but expenditures were not always classified properly.  Our audit disclosed that:

two FY 1996 transactions totaling $37,307 were misclassified as FY 1995 expenditures; 

	one transaction amounting to $8,499 was not adequately identified by type of expenditure on the FY 1996 Annual Certification Report; 

	the Police Department did not maintain a record of property purchased with equitable sharing funds; and  

	the Police Department did not require written authorization to expend equitable sharing funds.  

At the conclusion of the audit we conducted an exit conference with representatives of the Police Department to inform them of the results of our review.  We provided details of our audit methodology and discussed each recommended adjustment in detail.